  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




CONNECTICUT FAMILY DAY CARE HOME
 PROVIDERS DID NOT ALWAYS COMPLY
  WITH STATE HEALTH AND SAFETY
     LICENSING REQUIREMENTS




    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                       September 2013
                                                        A-01-12-02504
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  We determined that all 20 of the providers that we reviewed did not always comply with
  applicable State licensing requirements to ensure the health and safety of children.


WHY WE DID THIS REVIEW

The Administration for Children and Families (ACF) provides Federal grants through several
programs, including Head Start and the Child Care and Development Fund (CCDF). In a recent
report summarizing the results of 24 audits of Head Start grantees, we described multiple health
and safety issues that put children at risk. To determine whether similar health and safety risks
exist at childcare providers that received CCDF funding, we audited 20 licensed family day care
homes (providers) that received CCDF funding in Connecticut.

OBJECTIVE

Our objective was to determine whether the State agency’s onsite monitoring ensured that
providers that received CCDF funds complied with State licensing requirements related to the
health and safety of children.

BACKGROUND

The CCDF, authorized by the Child Care and Development Block Grant Act and the Social
Security Act, section 418, assists low-income families, families receiving temporary public
assistance, and families transitioning from public assistance to obtain childcare so that they may
work or obtain training or education. Combined funding for the CCDF program for fiscal year
2012, including the block grant’s discretionary fund and the CCDF mandatory and matching
funds, was approximately $5.2 billion.

The State’s Department of Social Services (State agency) is the lead agency and sponsor of the
Care 4 Kids program, which helps low- to moderate-income families in Connecticut pay for
childcare. Parents may select a childcare provider that satisfies the applicable State and local
requirements, including basic health and safety requirements.

As the lead agency, the State agency must monitor licensed family day care home providers.
According to the Child Care and Development Fund Plan for Connecticut FFY 2012–2013, the
State Department of Public Health (State licensing agency) is responsible for childcare licensing
and enforcement personnel, who conduct inspections to ensure that providers meet basic health
and safety standards. State regulations mandate the State licensing agency to conduct
inspections of providers at least every 3 years. These visits generally are unannounced and are
documented on an inspection report form.

We conducted fieldwork at 20 different providers from October 17 to November 30, 2012.




Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                                  i
WHAT WE FOUND

Although the State agency conducted the required inspections at all of the 20 providers that we
reviewed, this onsite monitoring did not ensure that providers that received CCDF funds
complied with State licensing requirements related to the health and safety of children. We
determined that all 20 of the providers that we reviewed did not comply with 1 or more State
licensing requirements to ensure the health and safety of children. Specifically, we found that 19
of the 20 providers did not always comply with 1 or more requirements related to the physical
conditions of the family homes, and 8 of the providers did not comply with required criminal
records and protective services checks. Two of the providers voluntarily surrendered their
licenses after our review of their compliance with State licensing regulations.

WHAT WE RECOMMEND

We recommend that the State agency work with the State licensing agency to:

    •   ensure through more frequent onsite monitoring that providers comply with health and
        safety regulations,

    •   develop a mandatory training program to improve provider compliance with health and
        safety regulations, and

    •   further define “household member” for the purposes of criminal record and protective
        services check requirements by adding examples of situations when it would be necessary
        for a provider to contact the State licensing agency and obtain the required checks.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
explained its plans for addressing our recommendations.




Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                              ii
                                                    TABLE OF CONTENTS

INTRODUCTION ...................................................................................................................... 1

         Why We Did This Review ............................................................................................... 1

         Objective .......................................................................................................................... 1

         Background ...................................................................................................................... 1
               Connecticut Childcare Services............................................................................ 1
               Related Office of Inspector General Work........................................................... 2
               National Association of Child Care Resources & Referral Agencies .................. 2
               Administration for Children and Families Proposed Regulations........................ 2

         How We Conducted This Review .................................................................................... 2

FINDINGS .................................................................................................................................. 3

         Providers Did Not Always Comply With Physical Conditions Requirements ................ 3
                State Requirements ............................................................................................... 3
                Providers Did Not Comply With Physical Conditions Requirements ................. 4
                Potentially Hazardous Conditions ........................................................................ 4
                Fire Safety ............................................................................................................ 5
                Environmental Safety ........................................................................................... 6
                Home Cleanliness ................................................................................................. 6
                Meeting Children’s Physical Needs ..................................................................... 7

         Providers Did Not Always Comply With Required Criminal Records and
            Protective Services Checks ........................................................................................ 8
                State Requirements ............................................................................................... 8
                Providers Did Not Comply With Required Criminal Records and Protective
                      Services Checks ........................................................................................... 8

         Providers Surrendered Licenses ....................................................................................... 8
                Family Home Number 6 ....................................................................................... 9
                Family Home Number 12 ..................................................................................... 9

         Causes of Noncompliance .............................................................................................. 10

RECOMMENDATIONS .......................................................................................................... 11

                    State Agency Comments ..................................................................................... 11




Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                                                                               iii
APPENDIXES

        A: Audit Scope and Methodology ............................................................................... 12

        B: Federal Regulations and State Licensing Regulations ............................................ 14

        C: Photographic Examples of Noncompliance With
           Physical Conditions Requirements ......................................................................... 20

        D: Instances of Noncompliance at Each Family Day Care Home ............................... 25

        E: State Agency Comments ......................................................................................... 26




Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                                                             iv
                                              INTRODUCTION

WHY WE DID THIS REVIEW

The Administration for Children and Families (ACF) provides Federal grants through several
programs, including Head Start and the Child Care and Development Fund (CCDF). In a recent
report summarizing the results of 24 audits of Head Start grantees, 1 we described multiple health
and safety issues that put children at risk. To determine whether similar health and safety risks
exist at childcare providers that received CCDF funding, we audited 20 licensed family day care
homes 2 (providers) that received CCDF funding in Connecticut.

OBJECTIVE

Our objective was to determine whether the State agency’s onsite monitoring ensured that
providers that received CCDF funds complied with State licensing requirements related to the
health and safety of children.

BACKGROUND

The CCDF, authorized by the Child Care and Development Block Grant Act and the Social
Security Act, section 418, assists low-income families, families receiving temporary public
assistance, and families transitioning from public assistance to obtain childcare so that they may
work or obtain training or education. Combined funding for the CCDF program for fiscal year
2012, including the block grant’s discretionary fund and the CCDF mandatory and matching
funds, is approximately $5.2 billion.

Connecticut Childcare Services

The State’s Department of Social Services (State agency) is the lead agency and sponsor of the
Care 4 Kids program, which helps low- to moderate-income families in Connecticut pay for
childcare. Parents may select a childcare provider that satisfies the applicable State and local
requirements, including basic health and safety requirements.

As the lead agency, the State agency must monitor licensed family day care home providers.
According to the Child Care and Development Fund Plan for Connecticut FFY 2012–2013, the
State Department of Public Health (State licensing agency) is responsible for childcare licensing
1
    Review of 24 Head Start Grantees’ Compliance With Health and Safety Requirements (A-01-11-02503).
2
  A “family day care home,” which consists of a private family home caring for not more than six children including
the provider’s own children not in school full time, where the children are cared for not less than 3 or more than 12
hours during a 24-hour period and where care is given on a regularly recurring basis except that care may be
provided in excess of 12 hours but not more than 72 consecutive hours to accommodate a need for extended care or
intermittent short-term overnight care. During the regular school year, a maximum of three additional children who
are in school full time, including the provider’s own children, are permitted, except that if the provider has more
than three children who are in school full time, all of the provider’s children must be permitted (Connecticut General
Statutes, § 19a-77(3)).



Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                                                 1
and enforcement personnel, who conduct inspections to ensure that providers meet basic health
and safety standards. State regulations mandate the State licensing agency to conduct
inspections of providers at least every 3 years (section 19a-87b-13(e)). These visits generally are
unannounced and are documented on an inspection report form.

Related Office of Inspector General Work

The Office of Inspector General, Office of Evaluation and Inspections (OEI), issued an Early
Alert Memorandum Report on July 11, 2013, to ACF entitled License-Exempt Child Care
Providers in the Child Care and Development Fund Program (OEI-07-10-00231). OEI
concluded that States may and do exempt many types of providers from licensing and that these
providers are still required to adhere to Federal health and safety requirements to be eligible for
CCDF payments.

National Association of Child Care Resource & Referral Agencies

The National Association of Child Care Resource & Referral Agencies (NACCRRA) published a
2012 update, Leaving Children to Chance: NACCRRA’s Ranking of State Standards and
Oversight of Small Family Child Care Homes, that reviewed and ranked State regulations for
small family childcare homes. 3 NACCRRA stated that without inspections or monitoring of
providers, regulations alone have limited value. NACCRRA added that when providers are not
inspected, it is difficult for a State to enforce its regulations and suspend or revoke the licenses of
individuals who are not in compliance. NACCRRA recommended that States increase
inspections of providers to at least once a year and that States reduce the caseload for licensing
inspectors to a ratio of 1:50.

Administration for Children and Families Proposed Regulations

ACF recently proposed amending current CCDF regulations to improve childcare health, safety,
and quality. 4 The proposed changes include a requirement that States’ “lead agencies” perform
an initial onsite monitoring visit and at least one annual unannounced onsite visit of providers
that have received CCDF subsidies. The proposal also requires providers responsible for the
health and safety of children to receive specific and basic training commensurate with their
professional responsibilities. In addition, ACF stated that it strongly encourages lead agencies to
establish requirements for ongoing training.

HOW WE CONDUCTED THIS REVIEW

Of the 1,012 providers that received CCDF funding for the month of June 2012, we judgmentally
selected 20 providers for our review. We based this selection on the consideration of certain risk

3
 NACCRRA works with more than 600 State and local Child Care Resource and Referral agencies nationwide.
NACCRRA leads projects that increase the quality and availability of childcare professionals, undertakes research,
and advocates childcare policies that positively impact the lives of children and families.
4
    78 Fed. Reg. 29441 (May 20, 2013).


Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                                                  2
factors, including previous health and safety findings, the number of children being served in a
geographic area, and the length of time since the State’s last inspection.

We conducted fieldwork at 20 different providers. The providers were located in Waterbury,
New Britain, Hartford, East Hartford, Bridgeport, New Haven, Windsor, and Windsor Locks,
Connecticut. We conducted unannounced site visits from October 17 to November 30, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology, Appendix B contains details
on the Federal regulations and State licensing health and safety requirements that pertain to
providers, and Appendix C contains photographic examples of noncompliance with physical
conditions requirements.

                                               FINDINGS

Although the State agency conducted the required inspections at all of the 20 providers that we
reviewed, this onsite monitoring did not ensure that providers that received CCDF funds
complied with State licensing requirements related to the health and safety of children. We
determined that all 20 of the providers that we reviewed did not comply with 1 or more State
licensing requirements to ensure the health and safety of children. Specifically, we found that 19
of the 20 providers did not always comply with 1 or more requirements related to the physical
conditions of the family homes, and 8 of the providers did not comply with required criminal
records and protective services checks. Two of the providers voluntarily surrendered their
licenses after our review of their compliance with State licensing regulations.

Appendix D displays a table that contains the instances of noncompliance at each provider we
reviewed.

PROVIDERS DID NOT ALWAYS COMPLY WITH
PHYSICAL CONDITIONS REQUIREMENTS

State Requirements

A prospective provider applies for a family day care home registration by completing, signing,
and submitting to the State licensing agency an application to obtain a family day care home
registration (Connecticut’s Statutes and Regulations for Licensing Family Day Care Homes
(State licensing regulations), § 19a-87b-3). The application forms must contain a certification
that the applicant or provider is familiar with the family day care home regulations, agrees to
abide by them, and will allow home visits by the State licensing agency’s staff. State licensing
regulations include requirements related to the physical conditions of family day care home
providers.


Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                                3
Appendix B contains all relevant State licensing regulations.

Providers Did Not Comply With Physical Conditions Requirements

We determined that 19 of the 20 providers that we reviewed did not comply with applicable
requirements related to the physical conditions of the family homes to ensure the health and
safety of children. Specifically, these providers did not comply with requirements in the
following areas:

    •   potentially hazardous conditions,

    •   fire safety,

    •   environmental safety,

    •   home cleanliness, and

    •   meeting children’s physical needs.

Potentially Hazardous Conditions

State Requirements

The State licensing regulations include the following requirements on provider physical
environment:

    •   facilities must be in good repair and reasonably free from anything that would be
        dangerous to children (section 19a-87b-9(b)) and

    •   facilities must have sufficient and safe indoor and outdoor play spaces to ensure
        appropriate activities, safety, and comfort for the day care children (section 19a-87b-
        9(f)(1)).

Providers Did Not Comply With Requirements for Potentially Hazardous Conditions

We determined that 17 of the 20 providers that we reviewed had 1 or more instances of
noncompliance with requirements to protect children from potentially hazardous conditions.
Specifically, we found 68 instances of potentially hazardous conditions.

At 17 of the providers, we found 64 instances in which the facility or equipment was not in good
repair and reasonably free from dangers to children. Examples of noncompliance included:

    •   furniture or other items or structures that were not stable or secured to prevent tipping
        onto a child (e.g., a large box television set on an unstable stand close to a portable
        playpen, and a fish tank on a dilapidated cabinet that did not fully support it)
        (Appendix C, photograph 1);

Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                                 4
    •   a bottle of car wash detergent on a porch that was part of the children’s play area;

    •   outdoor play areas or walkways that were not kept free from hazards (e.g., wooden fences
        with exposed nails, sheds not in good repair, and steps without handrails) (Appendix C,
        photograph 2);

    •   flooring that was not in good repair or presented a tripping hazard (e.g., rugs not secured
        to the floor) (Appendix C, photograph 3); and

    •   chipping paint on walls and flooring in areas occupied by children.

At four of the providers, we found four instances in which indoor or outdoor spaces were not
sufficient to ensure appropriate activities, safety, and comfort for children. Examples of
noncompliance included:

    •   children had insufficient indoor play space because the living room area where three
        children were being cared for was congested with two portable playpens and a child-sized
        picnic table, making it difficult to walk through the room, and there was not enough
        space to ensure appropriate activities, safety, and comfort for the children in attendance
        (although the provider had three children in its care that day, the provider was authorized
        to care for up to six preschool-aged children and three school-aged children);

    •   a crawl space beneath the family home was located in the children’s outdoor play area
        and was easily accessible to children (Appendix C, photograph 4);

    •   an outdoor play area was not properly protected from the driveway by a fence or other
        child-safe barrier (Appendix C, photograph 5); and

    •   a family home had wires that hung into an outdoor play area (Appendix C, photograph 6).

Fire Safety

State Requirements

Providers must ensure that the home and grounds provide a reasonable degree of safety from fire
(State licensing regulations, § 19a-87b-9(d)). Specifically, the State requires providers to ensure,
among other requirements:

    •   storage of flammable materials (section 19a-87b-9(d)(1)),

    •   safe exits (section 19a-87b-9(d)(4)),

    •   electrical safety (section 19a-87b-9(d)(3)), and

    •   smoke detectors and fire extinguishers (section 19a-87b-9(d)(6) and (7)(B)).


Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                                   5
Providers Did Not Comply With Fire Safety Requirements

We determined that 11 of the 20 providers that we reviewed had 1 or more instances of
noncompliance with fire safety requirements. Examples of noncompliance included:

    •   lighter fluid, charcoal, gasoline, and a propane tank found either in unlocked cabinets or
        in the children’s outdoor play area, all accessible to children (Appendix C, photograph 7);

    •   cluttered or blocked pathways or exits that would be used to escape a fire;

    •   no protective covers for electrical outlets in areas occupied by children; and

    •   a smoke detector that did not have a battery, and a fire extinguisher on a small table
        within the reach of children.

Environmental Safety

State Requirements

Poisonous substances must not be accessible to children enrolled in the facility. In addition, the
regulations state that poisonous and unidentified plants and plant parts must be removed from the
area, restricted by barriers, or kept out of the reach of children (section 19a-87b-9(c)).

Providers Did Not Comply With Environmental Safety Requirements

We determined that 6 of the 20 providers that we reviewed had 1 or more instances of poisonous
substances within areas that were accessible to children. Examples of noncompliance included:

    •   household cleaners, bleach, and first-aid supplies in a cabinet with a broken child lock
        and accessible to children (Appendix C, photograph 8);

    •   outdoor play areas with overgrown shrubbery, vines, and rosebushes with thorns without
        any protective barriers; and

    •   unidentified plants in pots on the floor in the living room area within the reach of
        children.

Home Cleanliness

State Requirements

Providers must keep facilities and equipment in a clean and sanitary condition that must not pose
a health hazard to children (State licensing regulations, § 19a-87b-9(a)).




Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                                6
Bathroom, washing, and toileting facilities must be adequate to ensure the health, safety, and
comfort of children. Sewage and garbage disposal systems must ensure a sanitary environment,
and garbage and trash must be disposed of properly and kept covered (section 19a-87-9(h)).

Providers Did Not Comply With Home Cleanliness Requirements

We determined that 6 of the 20 providers that we reviewed had 1 or more instances of either an
unclean or unsanitary environment in which children were receiving services. Examples of
noncompliance included:

    •   dog feces in several locations of the outdoor play area;

    •   children’s sleeping cots improperly stored outdoors on a front porch (Appendix C,
        photograph 9);

    •   fly strips with dead insects hanging near a children’s dining area;

    •   household clutter on kitchen and dining room tables, desks, and countertops;

    •   food splatters and spills and dirty dishes on a stovetop and surrounding area
        (Appendix C, photograph 10);

    •   dirty floors and walls, rusted baseboards, and stained carpets;

    •   improperly stored trash and recycling with bags and containers accessible to children; and

    •   inadequate diapering space and a childproof gate that was blocking direct access to the
        bathroom despite the fact that there was a potty-trained child in the home (this child used
        a portable potty instead of the bathroom).

Meeting Children’s Physical Needs

State Requirements

Providers must ensure that the children’s physical needs are adequately met while in the facility
(State licensing regulations, § 19a-87b-10(c)). Among other requirements, these regulations
state that there needs to be sufficient play equipment, which encourages large and fine muscle
activity, solitary and group play, and quiet play. The provider is also responsible for providing a
bed, cot, mat, or other provision for each child for napping or resting, which is comfortable,
clean, safe, and allows for minimal disturbance for each child.

Providers Did Not Comply With Requirements for Meeting Children’s Physical Needs

We found one provider that did not have adequate equipment to meet the developmental needs of
children. The provider had one doll and one other toy at the day care for three children. The
provider had a swing set for older children in the back yard, which did not have infant/toddler

Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                               7
swings, barriers, or rails to prevent falling and, therefore, was not age appropriate for the
children at the day care. The provider stated that the swing set was not for the day care children
but for her nieces when they came to visit. The space for three children was cramped and did not
allow room to ensure adequate sleep or play.

We also found that two providers did not have adequate sleeping arrangements for the children
in their care. Specifically, at one home we found three children sleeping on the same air mattress
in the living room instead of each child having his or her own sleeping provision. At the second
home, we noted two portable cribs where two of the three children would sleep. There was no
other provision for the third child to sleep.

PROVIDERS DID NOT ALWAYS COMPLY WITH REQUIRED
CRIMINAL RECORDS AND PROTECTIVE SERVICES CHECKS

State Requirements

In Connecticut, both Federal and State criminal records checks with the use of fingerprints are
required for family day care home applicants, providers, and household members. The
regulations require criminal record checks (section 19a-87b-6(f)) and protective services checks
(section 19a-87b-6(g)) for the family day care home applicant. In addition, the State requires
criminal records checks (section 19a-87b-7(b)) and protective services checks (section 19a-87b-
7(c)) for family day care home “household members.” 5

A “household member” is defined as any person other than the provider who resides in or has a
right to reside in the family day care home, such as the provider’s spouse or children, boarders,
and any other occupant (State licensing regulations, § 19a-87b-2(18)).

Providers Did Not Comply With Required Criminal Records and
Protective Services Checks

We determined that 8 of the 20 providers that we reviewed had 1 or more household members
who lacked 1 or more of the required criminal records checks. We found that within these 8
providers, there were 14 individuals who lacked the required Federal and State criminal records
checks using fingerprint cards. We also found that 9 of the 14 household members also lacked
the required protective services check.

PROVIDERS SURRENDERED LICENSES

Two of the providers that we reviewed voluntarily surrendered their licenses after our review of
their compliance with State licensing regulations. Both providers were licensed to care for six
preschool-aged children and three school-aged children (Connecticut General Statute,
§ 19a-77(3)). Providers must not have more than two children under the age of 2 years in the
family home (section 19a-87b-5(e)).

5
 Connecticut General Statutes § 29-17a(a) requires fingerprinting or any other method of positive identification for
mandated criminal record checks.


Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                                                    8
Family Home Number 6

At this provider location, there were three children in attendance on the day of our unannounced
inspection. In addition to identifying many areas of noncompliance with the overall physical
condition of the home, we witnessed two females in the home. The provider told us that one was
the provider’s daughter, and the other was her friend. The provider stated that both females were
21 years old and were just visiting; however, both females were upstairs (where the home’s
bedrooms were located) at the time of our arrival, and when they came downstairs, they were
wearing pajamas. Both females then went outside and began to clean the back yard.

We requested the names and addresses of the household members, as well as the two females
who were present during our review. Because of the overall physical condition of this family
home, we contacted the State licensing agency to discuss the situation and filed a formal
complaint. The next day, we accompanied two State licensing inspectors to the family home to
conduct a followup inspection on our complaint. There we found a man on a bed in the
basement with what appeared to be many of his personal belongings. In addition, the two
females from the prior day were again present.

State inspectors confirmed that there had been previous inspections conducted at this provider
location in response to complaints and ongoing investigations from the State agency. The
inspector had also witnessed the same females at the family home on prior visits. The State
inspector later determined that the male in the basement was the provider’s son. The provider
gave us a list of household members and the names of the visitors so we could determine
whether these individuals had all the required criminal records and protective services
checks. The State licensing agency had not been made aware of the changes in the household
members, nor did the provider notify the State regarding a prior domestic dispute that occurred at
the family home. On the basis of conditions at the family home and the history of
noncompliance, the State department advised us that this provider voluntarily surrendered its
license to participate as a licensed family day care provider. The conditions cited in the
voluntary surrender letter included alleged violations of the following State licensing regulations:

    •   19a-87b-5(j) – Notification of Change,

    •   19a-87b-6(e) – Dependability,

    •   19a-87b-6(g)(2) – Open Department of Children & Families (DCF) Investigation,

    •   19a-87b-7 – Household Environment/Members of Household, and

    •   19a-87b-9 – Physical Environment.

Family Home Number 12

At this provider location, there were six children in attendance on the day of our unannounced
inspection. Although we found no physical environment violations, we identified that there was
a woman with two additional children living in the basement. We were advised that this woman

Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                                9
was visiting temporarily because of a personal hardship and that her children were not included
as part of the licensed family day care. State licensing regulations state that the provider may
care for only two children under the age of 2 years at one time. The children being cared for all
appeared to be under the age of 2 years, with the exception of one of the two children who were
with the woman in the basement.

During our followup visit to the State licensing agency, we determined that the provider had not
notified the State licensing agency about the woman who was living in the basement. The State
licensing agency determined that this woman did not have the appropriate criminal records and
protective services checks required of a household member. According to a police report,
officers responded to the family home after receiving a 9-1-1 call from a child. Police officers
reported that when they arrived, the owner of the family day care was leaving in a vehicle.
Inside the home, officers found five unattended children under the age of 2 years, including a
4-month-old who was sleeping face down in a crib with two pillows on top of her. Police found
that the same woman who was identified as a visitor during our onsite visit was in the basement
asleep. The police arrested and charged the provider with five counts of risk of injury to a minor
and neglect.

The State licensing agency later advised us that the provider voluntarily surrendered its license to
operate a licensed family day care home. The conditions cited in the voluntary surrender letter
included alleged violations of the following State licensing regulations:

    •   19a-87b-5(e) – Infant Toddler Restrictions,

    •   19a-87b-5(j) – Notification of Change,

    •   19a-87b-6(e) – Judgment/Suitability/Dependability,

    •   19a-87b-6(g)(2) – Open DCF Investigation,

    •   19a-87b-8 – Staffing,

    •   19a-87b-10(h) – Supervision, and

    •   19a-87b-10(j)(1) – Child Protection.

Appendix D contains the number of instances and categories of noncompliance specific to these
providers.

CAUSES OF NONCOMPLIANCE

On the basis of our discussion with State officials and our review of the State licensing
regulations, we found that noncompliance with State requirements occurred because the State
licensing agency is required to make unannounced visits of providers only once every 3 years,
and the average ratio of licensing inspectors to programs is 1:332. NACCRRA recommended


Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                               10
that States increase inspections of providers to at least once per year and that States reduce the
caseload for licensing inspectors to a ratio of 1:50.

In addition, the State licensing agency’s definition of a “household member” does not address
those individuals who may visit the family home periodically or stay overnight and would be in
the presence of the children in the provider’s care.

Our discussions with State officials also confirmed that more frequent inspections would (1) help
to educate providers on health and safety regulations (currently only a certification in first aid is
required) and (2) identify noncompliant providers in a timelier manner. Currently, the provider
is required to obtain a copy of the State’s licensing regulations online or may request a copy of
the regulations via the mail. The licensing department discusses these regulations at the time of
initial inspection and again at the time of an unannounced visit. Because unannounced
inspections occur once every 3 years, the licensing department does not often identify health and
safety violations when they first occur or identify when a provider might need additional
training. Therefore, some health and safety violations may exist up to 3 years before a State
licensing inspector discovers a problem that places children at risk.

                                       RECOMMENDATIONS

We recommend that the State agency work with the State licensing agency to:

    •   ensure through more frequent onsite monitoring that providers comply with health and
        safety regulations,

    •   develop a mandatory training program to improve provider compliance with health and
        safety regulations, and

    •   further define “household member” for the purposes of criminal record and protective
        services check requirements by adding examples of situations when it would be necessary
        for a provider to contact the State licensing agency and obtain the required checks.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
explained its plans for addressing our recommendations. The State agency’s comments are
included in their entirety as Appendix E.




Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                                  11
                        APPENDIX A: SCOPE AND METHODOLOGY

SCOPE

Of the 1,012 active family day care home providers in Connecticut that received CCDF funding
for the month of June 2012, we judgmentally selected 20 providers for our review. We based the
selection on the consideration of certain risk factors, including previous health and safety
findings at the family day care home, population of cities and towns in Connecticut, and length
of time since the State’s last inspection. This review is part of a series of audits planned by the
Office of Inspector General that address the health and safety of children under the care of
providers that receive CCDF funding.

We conducted fieldwork at 20 different providers. The selected homes were located in
Waterbury, New Britain, Hartford, East Hartford, Bridgeport, New Haven, Windsor, and
Windsor Locks, Connecticut. We conducted these unannounced site visits from October 17 to
November 30, 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, State statutes, and regulations for licensing family
        home child day cares and the most recent Connecticut CCDF State plan approved by
        ACF;

    •   interviewed the CCDF program manager to determine how Connecticut monitored its
        family home child day care providers;

    •   obtained a letter from the State agency that explained our audit to give to the providers in
        our review;

    •   interviewed the chief of the Connecticut Department of Public Health’s Community
        Based Regulation Section regarding licensing requirements for providers;

    •   developed a health and safety checklist as a guide for conducting site visits;

    •   conducted unannounced site visits (inspections) at the 20 providers that we selected for
        review;

    •   interviewed providers to obtain a listing of household members to determine whether all
        required criminal history records checks were conducted; and

    •   discussed the results of our review with each of the providers, State licensing officials,
        and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain

Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                                  12
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                           13
APPENDIX B: FEDERAL REGULATIONS AND STATE LICENSING REGULATIONS

FEDERAL REGULATIONS

One of the goals of CCDF is to assist States in implementing the health, safety, licensing, and
registration standards established in State regulations (45 CFR pt. 98.1(a)(5)).

The lead agency must certify that there are in effect within the State (or other area served by the
lead agency) under State or local (or tribal) law, requirements designed to protect the health and
safety of children that are applicable to childcare providers that provide services for which
assistance is made available under the CCDF (45 CFR pt. 98.15(b)(5)).

STATE STATUTES AND REGULATIONS

The CCDF Plan for Connecticut requires the State licensing agency to conduct inspections to
ensure that providers meet basic health and safety requirements. The State licensing agency is
the State agency responsible for licensing of family child day care homes.

Connecticut General Statutes

Section 19a-77(3)

A “family day care home,” which consists of a private family home caring for not more than six
children including the provider’s own children not in school full time, where the children are
cared for not less than 3 or more than 12 hours during a 24-hour period and where care is given
on a regularly recurring basis except that care may be provided in excess of 12 hours but not
more than 72 consecutive hours to accommodate a need for extended care or intermittent short-
term overnight care. During the regular school year, a maximum of three additional children
who are in school full time, including the provider’s own children, are permitted, except that if
the provider has more than three children who are in school full time, all of the provider’s
children must be permitted.

Section 29-17a(a)

If a criminal history records check is required pursuant to any provision of the general statutes,
such check must be requested from the State Police Bureau of Identification and must be
applicable to the individual identified in the request. The requesting party must arrange for the
fingerprinting of the individual or for conducting any other method of positive identification
required by the State Police Bureau of Identification and, if a national criminal history records
check is requested, by the Federal Bureau of Investigation (FBI). The fingerprints or other
positive identifying information must be forwarded to the State Police Bureau of Identification,
which must conduct a State criminal history records check. If a national criminal history records
check is requested, the State Police Bureau of Identification must submit the fingerprints or other
positive identifying information to FBI for a national criminal history records check, unless FBI
permits direct submission of the fingerprints or other positive identifying information by the
requesting party.


Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                               14
Connecticut’s regulations for licensing family day care homes are found within sections
19a-87b-1 through 19a-87b-18.

Section 19a-87b- 6(a) – Awareness of Regulations

The applicant and provider must have a copy of the regulations at the facility and must have read
and understood the family day care standards set forth in these regulations.

Within the State licensing regulations, we used the sections listed below to identify the instances
of noncompliance.

Qualifications of Applicant or Provider

Section 19a-87b-6(f) – Criminal Record Check

National, State, and local police records must be checked by the department. The applicant,
provider, or any person working in the family day care home must not have a criminal record
that the commissioner reasonably believes renders such applicant, provider, assistant, or
substitute unsuitable to own, conduct, operate, or maintain or be employed by a family day care
home.

Section 19a-87b-6(g) – Protective Services Check

(1) The applicant and provider must be checked with DCF to determine whether:

    (A) there is a DCF record of child abuse, neglect, or risk thereof, or whether there is an
       ongoing investigation for such offenses; and

    (B) a child has been removed from care or custody for reasons of abuse, neglect, or risk
        thereof.

(2) A finding that there is a DCF record or an ongoing DCF investigation or that a child has been
    removed from care or custody, as set forth in subdivision (1) of this subsection (h), must
    provide a sufficient basis for the commissioner to take immediate action against the
    registration. The commissioner may deny a day care application, summarily suspend and/or
    propose to revoke a registration, or immediately revoke permission for a family day care
    home staff member to provide care under this section, depending on the particular
    circumstances of a given case.

Household Members

Section 19a-87b-7(b) – Criminal Record Check

The members of the household in a family day care home must not have been convicted of any
offenses that the commissioner reasonably believes renders such household unsuitable for the
provision of family day care services, including but not limited to:


Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                              15
    1. cruelty to persons under Connecticut General Statutes, § 53-20;

    2. injury or risk of injury to, or impairing morals of, children under Connecticut General
       Statutes, § 53-21;

    3. abandonment of children under the age of 6 years under Connecticut General Statutes,
       § 53-23;

    4. sexual assault in the fourth degree under Connecticut General Statutes, § 53a-73a, as
       same may be amended;

    5. illegal manufacture, distribution, sale, prescription, dispensing, or administration of
       controlled substances under Connecticut General Statutes, § 21a-277, 21a-278, or 21a-
       278a; and

    6. illegal possession under Connecticut General Statutes, § 21a-279, as same may be
       amended.

Section 19a-87b-7(c) – Protective Services Check

All members of the household must meet the same standards as required for the provider by
section 19a-87b-6(h).

19a-87b-8 – Qualifications of Staff

The provider may have substitutes and assistants in the facility only after the intended staff
member has submitted a staff approval application to the department and it has been approved in
writing by the commissioner.

Physical Environment

Connecticut’s licensing regulations state that the commissioner of public health must adopt
regulations to ensure that family day care homes meet the health, educational, and social needs
of children utilizing such homes.

Section 19a-87b-9(a) – Cleanliness

The facility and equipment must be kept in a clean and sanitary condition and must not pose a
health hazard to children. The commissioner, upon inspection, may require the provider to
correct any condition that may put children at risk of injury.

Section 19a-87b-9(b) – Freedom From Hazards

The facility and equipment must be in good repair and reasonably free from anything that would
be dangerous to children.



Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                               16
Section 19a-87b-9(c) – Absence of Poisonous Substances

Poisonous substances must not be accessible to children enrolled in the facility. Poisonous and
unidentified plants and plant parts must be removed from the area, protected by barriers, or kept
out of the reach of children.

Section 19a-87-9(d) – Fire Safety

The provider must ensure that the home and grounds provide a reasonable degree of safety from
fire, which must include, but not be limited to the following requirements:

    •   Section 19a-87-9(d)(1) – Safe Storage of Flammable Materials: Materials such as, but
        not limited to, flammable or combustible liquids, cleaning solvents, paints, excess
        amounts of combustible solids and fabrics must be properly stored and out of reach of
        children.

    •   Section 19a-87b-9(d)(2) – Safe Door Fasteners: Fasteners for doors to cupboards,
        closets, and rooms must be designed so that it is impossible for a child to become locked
        in the enclosed area. Every room used for childcare or capable of access by children,
        when provided with a door latch or lock, must be of a type that children can open from
        the inside and each lock must be designed to permit opening of the locked door from the
        outside in an emergency. The opening device must be readily accessible to the provider
        and staff.

    •   Section 19a-87b-9(d)(3) – Electrical Safety: Electrical cords and appliances must be in
        good repair. Special protective covers for all electrical receptacles must be installed in all
        areas occupied by children.

    •   Section 19a-87-9(d)(4) – Safe Exits: There must be two readily accessible, passable,
        remotely located and safe means of escape from each room used for day care in the
        facility. Every room used by children for sleeping, living, or dining purposes must have
        at least two means of escape, at least one of which must be a door or stairway providing a
        means of unobstructed travel to the outside of the building at street or ground level. The
        second means of escape must be permitted to be a window that is accessible and openable
        from the inside without the use of tools and provides a clear opening. The provider must
        remain with the children at all times, when the children are being cared for in space
        below ground level, to assist with emergency exiting. Passageways leading to means of
        escape must have adequate lighting and be kept free from barriers or obstructions. All
        means of escape must be easily opened and kept free of obstructions at all times. Every
        stairway must have a sturdy handrail for children to use, must provide safe passageway
        and be maintained free of obstructions. Sturdy child-safe gates must be placed at the top
        and bottom of stairways to prevent falls. During a home visit department staff may
        require the provider to demonstrate the safety and feasibility of children and childcare
        staff using intended escape routes.




Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                                17
    •   Section 19a-87b-9(d)(6) – Smoke Detectors: The provider must have smoke detectors, in
        operating condition, placed in the home so as to protect day care children’s sleeping
        areas, play areas, and the basement. There must be at least one smoke detector on each
        level of the facility.

    •   Section 19a-87b-9(d)(7)(B) – Fire Extinguisher: Each fire extinguisher must be installed
        using the hanger or brackets supplied, at a height not to exceed five feet above the floor.
        Extinguishers must not be obstructed or obscured from view.

Section 19a-87b-9(f)(1) – Safe Space

There must be sufficient indoor and outdoor play space to ensure appropriate activities, safety,
and comfort for the day care children. The indoor and outdoor play space must be neither
isolated nor remote from the primary care areas. The outdoor play area must be protected from
traffic, bodies of water, gullies, and other hazards by barriers, in a manner safe for children.

Section 19a-87b-9(h) – Adequate Washing, Toileting, Sewage, and Garbage Facilities

The bathroom washing and toileting facilities must be adequate to ensure the health, safety, and
comfort of the day care children. Sewage and garbage disposal systems must ensure a sanitary
environment. Garbage and trash must be disposed of properly and kept covered.

Section 19a-87b-5(e) – Terms of the Registration – Infant and Toddler Restriction

The provider must care for no more than two children under the age of 2 years at one time,
including his/her own children, except that the provider may care for up to six children under the
age of 2 years when an assistant is present.

Responsibilities of the Provider and Substitute

Section 19a-87b-10(a) – Registered Capacity and Maintaining Compliance With the Regulations

The provider must maintain the family day care home within the registered capacity and in
compliance with the regulations for family day care.

Section 19a-87b-10(c) – Meeting Children’s Physical Needs

The provider is responsible for seeing that the day care children’s physical needs are adequately
met while in the facility, including the following:

    1. Sufficient Play Equipment: There must be a sufficient quantity and variety of indoor and
       outdoor equipment, which is appropriate to the needs of the children, their developmental
       levels, and interests. There must be equipment that encourages large and fine muscle
       activity, solitary and group play, and quiet play.




Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                                18
    2. Good Nutrition: The family day care program must include adequate and nutritious
       meals and snacks, prepared and stored in a safe and sanitary manner including proper
       refrigeration for perishable foods. Readily available drinking water must be accessible to
       children at all times.

    3. Flexible and Balanced Schedule: The schedule must remain flexible, with time for free
       choice play, snacks, meals, and a rest period.

    4. Proper Rest: There must be a bed, cot, mat, or other provision for each child for napping
       or resting, which is comfortable, clean, safe, and allows for minimal disturbance for each
       day care child. Day care children must not be napped directly on carpeting or flooring.

    5. Personal Articles: For each day care child, there must be an individual blanket, towel,
       and toilet articles appropriate to the needs of the child.

Department Access, Inspection, and Investigation During Home Visits

Section 19a-87b-13(e) – Spot Inspections

The commissioner must make unannounced home visits, during customary business hours, to at
least 33.3 percent of the registered family day care homes each year.




Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                              19
      APPENDIX C: PHOTOGRAPHIC EXAMPLES OF NONCOMPLIANCE WITH
                   PHYSICAL CONDITIONS REQUIREMENTS




                    Photograph 1: A box-style television on top shelf of a stand
                    with a cable box on top of the television. Both are within
                    reach of a toddler’s playpen, which could pose a tipping
                    hazard should a child use the shelving to stand or climb.




                   Photograph 2: Nails protruding from a wooden fence in an
                   outdoor play area for children.

Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                20
         Photograph 3: A rug not properly tacked down could pose a tripping hazard.




         Photograph 4: A crawl space beneath a provider’s home that was accessible to
         children.




Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                     21
         Photograph 5: A children’s outdoor play area without a fence or protective barrier
         to prevent children from entering the driveway where cars are parked. Also shown
         is a set of stairs without protective gates.




         Photograph 6: An outdoor play area with wires that hang within the reach of
         children.




Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                           22
                Photograph 7: An unlocked kitchen cabinet with lighter fluid,
                charcoal, oven cleaner, and dish soap that are accessible to children.




                Photograph 8: Household cleaners in a cabinet beneath the kitchen
                sink that are accessible to children.



Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                      23
                 Photograph 9: Children’s sleeping cots stored outside on a front
                 porch.




                 Photograph 10: Unclean kitchen stove with rusted or missing
                 knobs and dirty dishes on the stovetop with food stains on the front
                 of the oven door.




Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                     24
          APPENDIX D: INSTANCES OF NONCOMPLIANCE AT EACH FAMILY
                              DAY CARE HOME


                                                                                                          Criminal
                                                                                                         Record and
Family                      Potentially                                                   Meets the      Protective
Home       Date of Last     Hazardous        Fire      Environmental         Home         Needs of        Services
  #         Inspection      Conditions      Safety         Safety          Cleanliness    Children         Checks
  1            4/8/2011         0             0              1                 0             0               0
   2         10/14/2011           3            0              0                 0              0              0
   3          9/13/2011           0            2              0                 0              0              0
   4          4/17/2012           2            1              0                 0              0              0
   5         10/11/2012           7            2              1                 0              1              0
   6          7/17/2012           6            4              3                 5              2              4
   7          3/22/2011           5            1              0                 0              0              0
   8          1/17/2012           2            1              0                 0              0              1
   9            3/8/2011          7            3              0                 0              0              2
  10         10/29/2010           5            3              1                 0              0              1
  11            6/7/2012          2            0              0                 0              0              0
  12          5/18/2010           0            0              0                 0              0              3
  13            9/2/2010          1            0              0                 0              0              1
  14          5/30/2012           3            0              3                 1              0              1
  15         12/10/2009           6            0              0                 4              0              0
  16         11/16/2011           3            0              0                 0              0              0
  17          2/16/2011           5            0              0                 1              0              0
  18          11/9/2011           7            2              0                 0              0              0
  19         10/28/2011           3            1              2                 1              0              1
  20            5/7/2012          1            1              0                 1              0              0
 Totals                          68           21              11               13              3              14


Notice: We provided to the State agency under a separate cover the specific names of the providers that we audited.




Connecticut Family Day Care Home Providers Did Not Always Comply
With State Health and Safety Licensing Requirements (A-01-12-02504)                                                   25
                                   APPENDIX E: STATE AGENCY COMMENTS

                                  STATE OF CONNECTICUT                                            TELEPHONE
                                                                                                  (860) 424-5053
                                   DEPARTMENT OF SOCIAL SERVICES                                  TDDmY
                                                                                                  1-800-842 -4524

RODERICK L. BREM BY
                                        OFFICE OF THE COMMISSIONER                                FAX
                                                                                                  (860) 424-5057
Commissioner
                                                                                                  EMAIL
                                                                                                  commis.dss@.ct.gov


       August 8, 2013


       George Nedder, Acting Regional Inspector General for Audit Services
       U.S. Department of Health and Human Services 

       Office of Inspector General 

       JFK Federal Building 

       15 Sudbury Street, Room 2424 

       Boston, MA 02203 


       Dear Mr. Nedder,

       This letter provides the Cmmecticut response to your July 17, 2013 draft report #A-01 -12-02504
       entitled: Connecticut Family Day Care Home Providers Did Not Always Comply With State
       Health and Safety Licensing Requirements.

       I wish to thank you and your staff for the thorough review completed on Connecticut' s
       administration of the Child Care and Development Block Grant (CCDBG). I am most
       appreciative to how you maintained ongoing communication with Peter Pale1mino, our CCDF ·
       Administrator, throughout your review process.

       I was very pleased to learn of your positive and complimentary statements regarding our agency
       financial and reporting controls along with the administration of our child care subsidy program
       called Care 4 Kids. We have and continue to be very proud of our CCDBG effmts since the
       block grant was passed in 1990.

       As it pertains to the draft report listed above, we have attached our fonnal response to your three
       recommendations. We do concur with your findings and have communicated how we plan to
       move forward. The Depmtment of Public Health, regulatory agency for family day care homes
       during the audit period, and the Department of Social Services do concur with your findings and
       have communicated how we plan to move forward.

       During this past legislative session, Connecticut created the Office of Early Childhood (OEC)
       which began operation on July 1, 2013. The OEC will consolidate several child care programs
       and services including family day care licensing, child care subsidy and eventually will include
       CCDBG administration. We are beginning a transition year but the OEC will assume leadership
       for Connecticut's response to the issues cited in your draft repmi. We have briefed Ms. Myra
       Jones-Taylor, who was appointed as the OEC Executive Director.




                         25 SIGOURNEY STREET • HARTFORD, CONNECTICUT 06106-503 3
         .        .                      Ao Eq ual Opportun ity I Affirmative Action Empl oye r
Connecticut Famzly Day C are Home P ravzdets Printed on Recycled or Recovered Paper                                 26
Did Not A lways Comply With State Health and S afety www.ct.gov/dss
Licensing Requirements (A -01-12-02504)
       George Nedder, Acting Regional Inspector General for Audit Services
       August 8, 2013
       Page 2


       We look forward to any fmiher questions you may have.

       Sine rely,


         ~!!~by
       CommissimF
                          1111




       C: 	     Commissioner Jewel Mullen, CT Department of Public Health
                Myra Jones-Taylor, Executive Director, Office of Early Childhood
                Raymond Singleton, Deputy Commissioner
                Peter Palermino, CT CCDF Administrator




C onnecticut Family Day C are Home P roviders                                      27
Did No t Always Comply With State H ealth and S afety
Licensing Requirements (A -01-12-02504)
                                            Connecticut Response 

                                                       to 

                                          Office of Inspector General 

                                         Draft Report# A-01-12-02504 



      OIG Recommendation #1 - Ensure through more frequent onsite monitoring that providers
      comply with health and safety regulations

      CT Response #1- The State of Connecticut concurs with this finding. Connecticut supports the
      concept of increased inspections of licensed child day care programs to improve regulatory
      compliance. Connecticut General Statute (CGS) 19a-87b states ..." commissioner or the
      commissioner' s designee shall make unannounced visits, during customary business hours, to
      at least thirty-three and one-third per cent ofthe licensed family day care homes each year".
      Connecticut has applied this statute in a manner to ensure that all programs are inspected at
      least once every third year. This interpretation of the statute maximizes the presence of child
      day care inspectors in all licensed child care programs throughout the State.

      Current resources enable the Department of Public Health to meet the statutory mandates of
      inspecting family day care homes every third year. Increasing the presence of inspectors in
      programs will improve the health and safety of children in these settings by identifying
      deficiencies before children are negatively impacted and providing more opportunities for the
      provision oftechnical assistance to child care providers to achieve and maintain full
      compliance. Annual inspection ofthese facilities, as recommended by these audit findings,
      would require additional resources. The State of Connecticut developed a proposal to increa se
      the inspection rate of all family day care homes to annual. The proposal identifies the need of
      11 additional full time staff, with necessary supplies and equipment costing more than $1.4
      million. Connecticut has appl ied for federal grant resources under the US Department of
      Education, Race to the Top Grant and submitted legislative proposals for increased state
      funding. Efforts to identify additional re sources to support increased monitoring of licensed
      facilities will continue in the 2014 Connecticut Legislative/Budget process.



      OIG Recommendation #2- Develop a mandatory training program to improve provider
      compliance with health and safety regulations

      CT Response #2- The State of Connecticut concurs with this finding. Connecticut agrees with
      the audit recommendation for increased training opportunities for providers which would
      improve their knowledge and understanding of the regulations. When providing technical
      assistance to applicants and providers, Connecticut will maximize use of media recording
      devices so that presentations, workshops, forums, etc. are posted on the Child Day Care
      Licensing Programs' website and made available to individuals unable to attend technical




Connecticut Family Day Care Home Providers                                                              28
Did Not Always Comply With State Health and Safety
Licensing Requirements (A-01-12-02504)
      assistance opportunities. The Department of Public Health in collaboration with the
      Department of Education and the Office of Early Childhood has an existing contract with the
      National Association of Regulatory Administration (NARA). Under this contract, a survey will be
      provided to all licensed family day care providers who will be asked for feedback concerning the
      licensing program, including their access to technical assistance, their understanding of the
      regulations and their overall feeling about the way training is provided. Connecticut will use
      the survey results to enhance its existing training activities. Connecticut's implementation of a
      new Office of Early Childhood begun in July, 2013 will ensure a cross-disciplinary approach,
      bringing together programs previously maintained separately, enabling more opportunities for
      resource sharing and efficiency.

      OIG Recommendation #3- Further define "household member" for the purposes of criminal
      record and protective services check requirements by adding examples of situations of when it
      would be necessary for a provider to contact the State licensing agency and obtain the required
      checks

      CT Response #3- The State of Connecticut concurs with this finding. The Department of Public
      Health in collaboration with the Department of Equcation and the Office of Early Childhood has
      an existing contract with the National Association of Regulatory Administration (NARA). This
      contract requires NARA to conduct a thorough review of the family day care home regulations
      and provide draft regulation changes. The Department of Public Health will ensure that a
      clearer definition of "household member" is considered part of the revisions to the regulations.




Connecticut Family Day Care Home Providers                                                          29
Did Not Always Comply With State Health and Safety
Licensing Requirements (A-01-12-02504)
